No. ______

In the Supreme Court of the United States
MICHAEL ABATTI AND MIKE ABATTI FARMS, LLC,
Petitioners,
v.
IMPERIAL IRRIGATION DISTRICT,
Respondent.
CERTIFICATE OF SERVICE
I, H. Christopher Bartolomucci, a member of the Bar of this Court, hereby
certify that on March 29, 2021, the Petition for a Writ of Certiorari in the abovecaptioned case was served by e-mail on the following counsel for respondent, who
agreed to electronic service in lieu of service of paper versions of the Petition:
Jennifer Meeker, Esq.
Frederic Fudacz, Esq.
Gina Nicholls, Esq.
NOSSAMAN LLP
777 South Figueroa Street, 34th Floor
Los Angeles, CA 90017
(213) 612-7800
jmeeker@nossaman.com
ffudacz@nossaman.com
gnicholls@nossaman.com
Counsel for Respondent
I further certify that all parties required to be served have been served.

/s/H. Christopher Bartolomucci
H. CHRISTOPHER BARTOLOMUCCI
Counsel of Record
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
Counsel for Petitioners

2

